                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

7ase Number: I08020018                                                                    Page 1 of 1



        Based on a request from an official,' we initiated an investigation to address whether an agency
        investigation of an employee2adhered to professional standards.' We found no evidence to
        suggest that the investigation failed to meet those personal and professional standards. We found
        the investigation was conducted with the appropriate degree of independence and objectivity.
        Our findings will be provided to the requesting agency. Accordingly, no further action is
        warranted and this case is closed.




ISF OIG Form 2 (1 1/02)
